CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that Brief Amici Curiae of the
Assembly of Canonical Orthodox Bishops of the United States of America, et al.,
supporting the Petitioners in No. 21-164, Trustees of the New Life In Christ Church,
Petitioner v. City of Fredericksburg, Virginia; contains 2,593 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).
September 3, 2021

/s/ Frederick W. Claybrook, Jr.
FREDERICK W. CLAYBROOK, JR.
Counsel of Record
CLAYBROOK LLC
700 Sixth St., N.W., Ste. 430
Washington, D.C. 20001
tel. (202) 250-3833
Rick@claybrooklaw.com

